                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 ‫ ׀‬800.233.5874
                                                                                           Online Contact Form
                                                                                           OIG@peacecorps.gov




To:           Carrie Hessler-Radelet, Deputy Director
              Daljit Bains, Chief Compliance Officer

From:         Joaquin Ferrao, Deputy Inspector General

Date:         September 16, 2013

Subject:      Final Report on the Program Evaluation of Peace Corps/Moldova
              (IG-13-04-E)

Transmitted for your information is our final report on the Program Evaluation of Peace
Corps/Moldova.

Management concurred with all 11 recommendations. The recommendations will remain open
pending confirmation from the chief compliance officer that the documentation identified in
management’s response has been received. In its response, management described actions it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities.

Our comments, which are in the report as Appendix C, address these matters. Please respond
with documentation to close the open recommendations within 90 days of receipt of this
memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluation Jim O’Keefe at 202.692.2904 or to Evaluator Danel Trisi at 202.692.2936.
Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Stacy Rhodes, Chief of Staff/Chief of Operations
        Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Carlos Torres, Acting Associate Director, Global Operations
        Kathy Rulon, Acting Regional Director, EMA
        Betsy Vegso, Chief of Programming and Training
        Hill Denham, Chief of Operations, EMA
        Helen Lowman, Associate Director, Volunteer Recruitment & Selection
        Daryl Sink, Chief Overseas Operations, Safety & Security
        Brenda Goodman, Deputy Associate Director, Volunteer Support
Barry Simon, Chief, Clinical Programs
Sonia Stines Derenoncourt, Director, OPATS
Marie McLeod, Director, Office of Global Health and HIV
Cathryn Thorup, Director, OSIRP
Janet Utecht, Country Director, Moldova
Jennifer Parrish Taylor, Special Assistant to the Chief Compliance Officer
Moldova Country Desk
     Peace Corps
     Office of Inspector General




Peace Corps/Moldova Volunteer Brendan McInerney and host mother




                        Flag of Moldova

    Final Program Evaluation Report:
          Peace Corps/Moldova
                       IG-13-04-E

                                          September 2013
                                     EXECUTIVE SUMMARY
More than 1,100 Peace Corps Volunteers have served the people of Moldova since the program
began in 1993. There are currently four project sectors: English education, health education,
community and organizational development, and small enterprise development. At the onset of
this evaluation, 104 Volunteers were in Moldova.

PC/Moldova (hereafter, “the post”) is a strong performing post with qualified and dedicated
staff. The post has been well-managed despite undergoing a complete turnover of the three U.S.
direct hire (USDH) positions in 2012. The local staff demonstrated a high level of
professionalism and commitment to Volunteers and the Peace Corps mission. The post maintains
a good working relationship with the U.S. Embassy and Peace Corps headquarters.

The post has a strong programming foundation and has applied the Focus/In Train Up initiative
(FITU) to all its projects.1 All government ministry partners interviewed expressed appreciation
for the Volunteers’ work and look forward to future collaboration with the Peace Corps. The
post’s comprehensive site selection process has placed Volunteers with meaningful assignments,
strong counterparts, and good host families. However, Volunteers placed in urban sites faced
challenges integrating into their communities.

The training program in Moldova is effective at helping trainees prepare for service. The post
benefits from experienced language training instructors who have been working with the post for
many years. Additionally, because Volunteer site placements are announced in the fourth week
of pre-service training (PST), the staff can tailor the training to specific site placements for the
rest of PST. However, the post is not utilizing the results of Volunteer language proficiency
interviews in a meaningful way and it could improve its use of trainee assessment tools.

The post has developed a solid Volunteer support structure. Volunteers feel well-supported by
staff and have found them to be responsive to the concerns they raise. Staff conduct
comprehensive site visits and distribute informative weekly email newsletters to Volunteers. Post
staff has adequately responded to crimes committed against Volunteers and is prepared to
support them during emergencies. However, we identified some issues related to Volunteer
safety and emergency preparedness that require attention. Some Volunteers were unaware of
their consolidation points, and many Volunteer Site Locator Forms (SLFs) were missing
important information.2 The post is using electronic site history files but recent security incidents
had not been properly documented. Post staff was using different versions of the Volunteer
housing checklist that did not contain identical housing elements, which creates inconsistency in
the housing review and approval process. Also, some Volunteers did not have locks to their
rooms or functioning smoke/carbon monoxide detectors.

Our report contains 11 recommendations, which, if implemented, should strengthen post
operations and correct the deficiencies detailed in the accompanying report.

1
  FITU seeks to focus on a limited number of highly effective projects designed to maximize the skills of generalist
Volunteers with limited expertise and/or work experience.
2
  Site Locator Forms include information that may be used to locate a Volunteer in an emergency.


Final Program Evaluation Report: Peace Corps/Moldova                                                                   i
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

HOST COUNTRY BACKGROUND ......................................................................................................1

PEACE CORPS PROGRAM BACKGROUND........................................................................................1

EVALUATION RESULTS ....................................................................................................................2
          MANAGEMENT CONTROLS ............................................................................................................................. 2

          PROGRAMMING .............................................................................................................................................. 3

          TRAINING ........................................................................................................................................................ 9

          VOLUNTEER SUPPORT .................................................................................................................................. 14


OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................................................22

INTERVIEWS CONDUCTED .............................................................................................................23

LIST OF RECOMMENDATIONS .......................................................................................................26

APPENDIX A: LIST OF ACRONYMS ................................................................................................27

APPENDIX B: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT ...........................................28

APPENDIX C: OIG COMMENTS.....................................................................................................35

APPENDIX D: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ...............................36
                           HOST COUNTRY BACKGROUND
The Republic of Moldova is a small land locked country in Eastern Europe located between
Romania and Ukraine. It is approximately the size of Maryland. Moldova declared its
independence from the former Soviet Union on August 27, 1991. Soon after, the eastern
Transnistria region seceded from Moldova leading to conflict with the newly created state.
However, this conflict has been stable since a cease fire was established in 1992. The country
had parliamentary elections in July 2009, where the opposition gained a narrow majority over the
communist party, leading to the president’s resignation the following September. The country
was without a president until March 2012 when the current president obtained enough votes
through parliament to be elected.

Moldova has a population of 3.6 million. Most people are of Romanian descent but there are also
small percentages of Ukrainians, Russians, and Gagauzians. The majority of the population lives
in rural areas with poor living conditions. Moldovan is the primary language spoken, while
Russian and Gagauz, a Turkish dialect, are spoken in other parts of the country. Eastern
Orthodox is the religious denomination of the majority of the population.

The country’s climate and geography makes it vulnerable to landslides and has suffered from
severe flooding in the past. The country is also subject to earthquakes.

Moldova is listed as “medium human development” and ranks 113 out of 186 countries in the
2013 United Nations Human Development Report, making it the European country with the
lowest ranking.3 Its economy is one of the poorest in Europe. Moldova imports almost all of its
energy supplies and is quite dependent on Russia. Moldova has an agro-based economy focused
on wine, fruits, vegetables, and tobacco.



                   PEACE CORPS PROGRAM BACKGROUND
The Peace Corps Moldova program began in 1993 at the request of the government to build the
English-teaching capacity of Moldovan educators. More than 1,100 Volunteers have served
continuously since the program began. The program has since expanded to include the following
four projects:

       English Education (EE)
        The first Volunteers arrived in 1993 to teach English to primary and secondary students
        to address the country’s shortage of English teachers. The program changed direction in
        2008 to focus more on teacher development instead of having Volunteers directly


3
 The United Nations Human Development Report publishes an annual Human Development Index (HDI). The HDI
provides a composite measure of three basic dimensions of human development: health, education and income.
Countries receive a ranking that ranges from “very high human development” to “low human development” based
on related data.


Final Program Evaluation Report: Peace Corps/Moldova                                                      1
         teaching. Volunteers support Moldovan teachers in planning and co-teaching lessons and
         organize training workshops for students and teachers.

        Health Education (HE)
         The Peace Corps initiated a health education project in 1997 by placing Volunteers in
         health centers to promote health education and training in communities. In 2000,
         Volunteer activities were refocused on schools and other community agencies.
         Volunteers co-teach on relevant health topics in secondary schools. Additionally,
         Volunteers develop health education resource centers, health clubs, and other social clubs
         at sites.

        Community and Organizational Development (COD)
         The project started in 1996 and has evolved to now place Volunteers with community-
         based organizations and municipalities. Volunteers work with their counterparts in a
         variety of projects to promote youth development, environmental awareness, minority
         and human rights, volunteerism, and effective use of information communications
         technology.

        Small Enterprise Development (SED)
         This project separated from the COD project in 2004 to better meet the distinct needs in
         the agricultural and rural business sectors. The project has recently changed its primary
         focus from agriculture to business and economic development to keep pace with the
         country’s development. Volunteers work with a variety of business support organizations
         to strengthen the economic viability of farmers, small business owners, and cooperatives.

At the onset of this evaluation 104 Volunteers were serving in Moldova. The last Office of
Inspector General (OIG) evaluation was conducted in 2003. The post’s fiscal year 2013 budget
was $1.9 million.4 At the time of the evaluation the post had 31 permanent staff positions.



                                     EVALUATION RESULTS
MANAGEMENT CONTROLS

One of the key objectives of our country program evaluation is to assess the extent to which the
post’s resources and agency support are effectively aligned with the post's mission and agency
priorities. To address this question, we assess a number of factors, including staffing; staff
development; office work environment; collecting and reporting performance data; and the
post’s strategic planning and budgeting.




4
 This amount does not include the salaries, benefits, and related cost of U.S Direct Hires assigned to post and other
costs the agency has determined should be centrally-budgeted.



Final Program Evaluation Report: Peace Corps/Moldova                                                                2
The evaluation found a generally well-managed post despite a complete turnover of the three
USDH positions in 2012; the country director (CD), director of programming and training
(DPT), and director of management and operations (DMO). The local staff demonstrated a high
level of professionalism and commitment to Volunteers and the Peace Corps mission. The post
staff worked well as a team and with the new USDH employees. They also maintained effective
relationships with staff at the U.S. Embassy and Peace Corps headquarters. The staff was looking
forward to receiving larger trainee inputs in the future. In reviewing the post’s management,
work environment, growth plans, relationship with the U.S. Embassy, and relationship with
headquarters we found no significant areas of concern that would necessitate action by the post.

Post Management and Office Work Environment. Staff members reported that morale is high,
and they are proud of the communication and collaboration that occurs across the units. Their
commitment to the Peace Corps was one of the primary reasons the post performs so well despite
the change in post leadership. They are also appreciative of the supervision and guidance
provided by the post leadership. Additionally, the post benefits strongly from highly skilled and
professional in-country staff. The in-country staff feel a great sense of camaraderie and respect
for their peers and leadership:

       “It’s a nice place to work. Each person knows what to do. It’s a very different climate in Peace Corps than
       other Moldovan organizations.”

       “Even with the most challenging situations I don’t hesitate to approach [the leadership]. [The CD] has a
       good way of handling situations diplomatically but forcefully.”

       “Everyone has a value. When someone is missing for whatever reasons…then you feel like something is
       missing.”

Moderate Growth. The post received 66 trainees in June 2012 and requested 60 trainees for its
June 2013 input and 80 trainees for its June 2014 input. The staff was confident in their ability to
handle the increased trainee input and was looking forward to it as they had received and
supported larger trainee inputs in the past.

Relationship with the Embassy. The post has an effective working relationship with the U.S.
Embassy in Chisinau. The post leadership participates in embassy meetings and regularly meets
with the ambassador. The embassy staff are very knowledgeable of the Peace Corps’ operations
in Moldova and coordinate with post staff on programmatic and administrative issues as needed.

Headquarters Support. In general, the staff appreciated the support provided by headquarters’
offices. Staff have benefited from the support and resources provided during staff trainings and
headquarters’ staff visits to Moldova. They also value the availability and flexibility of
headquarters staff to provide support when issues arise.

Because of the strength of the post’s management practices and effective operations there are no
recommendations at this time that require management attention.

PROGRAMMING




Final Program Evaluation Report: Peace Corps/Moldova                                                                 3
The evaluation assessed the extent to which the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

        The coordination between the Peace Corps and the host country in determining
         development priorities and Peace Corps program areas;
        Whether post is meeting its project objectives;
        Counterpart selection and quality of counterpart relationships with Volunteers;
        Site development policies and practices.

We determined through our evaluation that the post has implemented effective programming
elements. In reviewing project objectives, host country coordination, management of small
grants, Volunteer performance reporting, monitoring and evaluation initiatives, and site
identification initiative we found no significant areas of concern that would necessitate action by
the post.

Project Objectives. The post has applied the agency’s FITU initiative and is appreciative of the
structure and resources provided as staff update the project plans and related objectives. Post
staff worked with Volunteers, counterparts, and project partners to choose the sector indicators
and finalize their project frameworks.5 The post received support from staff at Peace Corps
Headquarters throughout this process and has submitted all four projects frameworks to
headquarters for review. Even though the project frameworks were not finalized, 84 percent (21
of 25) of interviewed Volunteers rated their ability to achieve their project objectives
“moderately well” or better. 6

Some headquarters staff questioned whether the post would benefit from combining the COD
and the SED projects into one project because they share some similarities and operate under the
same community economic development project sector. Post staff felt strongly that the COD
project is meeting specific, discrete needs in the public sector by working with municipal offices
and nongovernmental organizations (NGO); the SED project does not meet these same needs
because it focuses on the private sector. At the time of the evaluation, 19 COD Volunteers were
partnered with NGOs while only 10 COD Volunteers were working with municipal offices. Post
staff mentioned that the recent elections had made it harder to identify Volunteer placements in
municipal offices. We encourage the post to continue to identify opportunities for COD
Volunteers to work with municipal offices, and note that both the ministry partners and the U.S.
Embassy found the municipal development component of the COD project to be the most
beneficial for Moldova.

Host Country Coordination. Peace Corps staff worked to develop a collaborative relationship
with Moldovan project partners. The post invites ministry partners to participate in Peace Corps
events and seeks their support in identifying potential Volunteer sites. Ministry partners
interviewed at the time of the evaluation were familiar with the Peace Corps’ programs and

5
  As part of its Focus In/Train Up activities, the agency is developing standardized indicators that posts will use to
monitor and evaluate projects.
6
  Volunteer interviews were conducted using a standardized interview questionnaire, and Volunteers were asked to
rate many items on a five-point scale (1 = not effective, 3 = average, 5 = very effective).


Final Program Evaluation Report: Peace Corps/Moldova                                                                     4
expressed appreciation for the work Volunteers are doing. Ministry partners also reported that
Volunteer work aligns well with Moldovan development goals. They were satisfied with their
coordination with the post and would like to receive more Volunteers. Post staff expressed an
interest in further strengthening the relationships with the ministry partners because recent
government elections had created turnover in the ministries and affected the post’s ability to
maintain some ministry-level contacts.

Management of Small Grants. The post successfully implemented the new agency-wide small
grant procedures and forms.7 Three grants had been submitted since the new small grants
procedures began and the post has maintained well-organized grant project files. Over half of the
interviewed Volunteers were involved in grant activities supported by the Peace Corps.
Volunteers were using the following small grants: Peace Corps Partnership Program, Small
Project Assistance (SPA), and Volunteer Assistance Support and Training grants. The post has a
small grants committee that reviews and approves grants and consists of Volunteers and staff
from the administrative and programming units. Volunteers and counterparts applying for SPA
grants are required to do a presentation before the small grants committee.

Volunteer Performance Reporting. Volunteers were completing their Volunteer reporting
forms (VRFs), and most of the Volunteers we interviewed reported that the information they
provided was reliable. The programming staff raised some concerns regarding technical issues
and limitations with the VRF form. For example, the character limits for some data fields were
too restrictive and the staff found the built-in feature to provide VRF feedback to Volunteers to
be cumbersome. The staff communicated these issues to the post’s information technology
specialist, who informed headquarters.

Monitoring and Evaluation Initiatives. The post is well-positioned to start a comprehensive
monitoring and evaluation program. As part of Eastern Mediterranean Asia (EMA) region’s
monitoring and evaluation initiative, a programming staff member was identified to serve as the
lead for the post.8 The selected staff member has previous monitoring and evaluation experience
and has already started engaging with staff and Volunteers on current opportunities to
incorporate monitoring and evaluation into post activities. In addition to the data reported by
Volunteers, the post has other data gathering instruments that could be incorporated into a
comprehensive monitoring and evaluation program. For example, the HE Volunteers distribute
surveys before and after education campaigns, and the COD and SED Volunteers use a tool that
measures organizational development. Post staff were looking forward to fully initiating their
monitoring and evaluation efforts after finalizing the project frameworks.

In addition to the aforementioned programming elements, the post has also excelled in
identifying Volunteer sites, which is highlighted below. While the post has strong programming
elements, the evaluation uncovered some areas that require management’s attention, particularly
documenting security incidents in site history files and placing Volunteers in urban sites. The
remainder of this section provides more information about these topics.

7
  On September 23, 2012, Peace Corps announced a new streamlined initiative for all small grants programs.
8
  Moldova participated in the region’s monitoring and evaluation initiative where a post staff member was identified
to devote 25 percent of their time to enhancing the post’s monitoring and evaluation activities. Additionally, the
EMA region hired a headquarters-based monitoring and evaluation specialist to work with posts on this effort.


Final Program Evaluation Report: Peace Corps/Moldova                                                               5
All projects have established robust procedures to identify Volunteer sites.

According to the Peace Corps Programming and Training Guidance: Management and
Implementation, “Volunteers can more easily thrive when their sites and homes are safe, their
families and neighbors are welcoming, their role and work assignment are well-defined, and
partners and host families understand their roles.” The guidance emphasizes the importance of
“encouraging potential partner agencies to request Volunteers” and “to orient the potential
partners and host families to the Peace Corps development philosophy and the project’s purpose,
goals and objectives.”

Volunteers interviewed were overwhelmingly content with the sites the post had indentified and
their working relationships with counterparts. All Volunteers (25 of 25) rated their sites
favorably and the majority gave their sites the highest rating possible of “very satisfied.”
Additionally, all Volunteers had counterparts, and all but one of these counterparts had been
identified with the support of Peace Corps. Eighty-four percent of Volunteers (21 of 25) gave
their counterparts favorable ratings in supporting them to meet their project objectives, and all
interviewed Volunteers (25 of 25) reported having a positive working relationship with their
counterpart. Volunteers are required to live with a host family during their first three months at
site, and 88 percent (22 of 25) rated this experience and their living accommodations favorably.

There are several aspects to program operations that lead to such effective identification of sites,
host families and counterparts. Post staff begin their site identification process well before
trainees arrive. They engage their ministry partners, NGOs, and current Volunteers to start
identifying a list of potential sites. All organizations and communities interested in hosting a
Volunteer are required to submit an application for consideration. The staff develop more sites
than trainees requested to provide flexibility in site assignments and to provide a back-up in case
any sites are not ready by the end of PST. Because Moldova is a small country, post staff are
able to easily visit potential sites to meet with project partners and host families.

 The community is asked to identify potential counterparts and prepare three host families where
the Volunteer could reside during the initial three months at site. Post staff meet with community
leaders, counterparts, and the host families to set accurate expectations and inspect the housing
options. As site development is started early the programming staff is able to spend more time
during PST learning Volunteers’ strengths and preferences, information they use when assigning
Volunteers to their sites. Near the conclusion of PST, both counterparts and host families attend
training sessions to learn more about the mission of Peace Corps and about working and living
with a Volunteer.

Volunteers can be successful in all aspects of the Volunteer experience when sites are carefully
selected and when counterparts and host families are adequately oriented. Volunteers can
develop strong relationships with their counterparts to achieve their project objectives and
become more integrated into their communities by living with a host family. The post’s
comprehensive site identification approach contributes significantly to the overall effectiveness
of its program.




Final Program Evaluation Report: Peace Corps/Moldova                                                 6
Recent security incidents were not properly documented in the site history files.

MS 270 “Volunteer/Trainee Safety and Security” instructs all posts to “maintain a system for
recording the history of a site,” including “security issues that could affect future Volunteer
placements in particular areas.” The Peace Corps Programming and Training Guidance:
Management and Implementation recognizes the value of site history information and further
instructs all posts to rely on site history files during site development so staff can fully
understand the site’s suitability. Additionally, the standard operating procedure for site history
files requires that they be maintained electronically in a centralized place.

The evaluation found that site history files did not always contain information about security
incidents. Four recent security incidents that occurred among currently serving Volunteers, and
involved their host families or work sites, had not been documented in the electronic site history
files.

There are several reasons why the post was unable to maintain accurate, up-to-date site history
files. The post lacks a centralized location for site history files and, instead, information is stored
in multiple places and formats. For example, some site history information was kept by the
programming unit on the office’s electronic shared drive. This information was not organized
geographically but rather by project sectors and trainee input group. This could make it difficult
for staff to locate information about a specific site unless they know the sector and trainee input
of the last Volunteer to be placed at that site. Additionally, post staff entered some site history
information on safety incidents at specific sites into the Volunteer Information Database
Application (VIDA).9 Site history information may be obtained by various post staff members as
they all interact with Volunteers and their communities and may learn of important site
information that should be documented. However, there was no documented procedure to ensure
that relevant security information is regularly entered by staff into the site history files.

When previous security incidents are not properly documented, the post risks placing future
Volunteers in inappropriate work sites or with inappropriate host families and makes Volunteers
at risk of crimes.


                    We recommend:

                      1. That the safety security coordinator establish a process to
                         ensure that safety and security incidents are properly
                         documented in the post’s site history files in a centralized
                         location.




9
    VIDA is a tool used by Peace Corps staff that manages Volunteer information at post.


Final Program Evaluation Report: Peace Corps/Moldova                                                  7
Volunteers placed in urban sites faced challenges integrating into their communities.

Peace Corps’ Programming and Training Guidance: Project Design and Evaluation explains that
each “project normally has a strategy for placement of a smaller number of Volunteers in urban sites.
Such higher level assignments are usually most appropriate for more experienced Volunteers, third-
year Volunteers, and Volunteers age 50 and older.” The guidance also explains that the majority of
Volunteers are placed in rural sites because:

          Rural areas offer strong opportunities for Volunteer integration and development opportunities
           benefiting the lowest income groups.
          Other development organizations, even when their mission includes rural areas, do not have the
           resources to place staff in rural sites.
          Rural placements provide jobs that are appropriate for generalists, who make up the greatest pool of
           Peace Corps Volunteers.
          Rural areas often have lower crime rates than urban areas, decreasing Volunteer exposure to risk.
          These areas have the largest number of people needing assistance.

At the time of the evaluation 19 percent (20 of 104) of the Volunteers were serving in urban sites.
This included twelve Volunteers in the capital, Chisinau, and eight Volunteers in the large cities of
Cahul or Balti. Although many posts allow third year Volunteers to live in the capital city, only three
of the Moldova urban Volunteers were third-year Volunteers and only one was over the age of 50.
These urban Volunteers were predominately from two project sectors: 11 from the COD and six
from the SED, which equates to 38 percent (11 of 29) and 22 percent (6 of 27) of all the Volunteers
in those sectors, respectively.

Although there may be valid reasons to place Volunteers in an urban setting, the post has not
developed a uniformed policy or approach. Staff reported that urban placements were more
common for Volunteers in the COD and SED sectors because they cannot rely on schools to
identify rural Volunteer sites. Urban placements are sometimes done for medical reasons;
however, the Moldova medical officers stated that many medical conditions can be
accommodated without placing the Volunteer in an urban site. Without a post-wide policy to
guide urban placements programming staff in each project sector are making their own decisions.

Having numerous Volunteers in urban areas may have undesirable impacts for the post and the
Peace Corps. For instance, smaller communities and rural-based organizations may benefit more
from a generalist Volunteer than more established or better funded partner organizations that are
often found in larger cities. Additionally, Volunteers living in urban areas often decide to live
with other Volunteers to combine their living allowance to pay the more expensive rent. Eleven
Volunteers in urban areas were living with other Volunteers. These Volunteers face additional
challenges learning the local language as they can frequently speak English with other
Volunteers instead of practicing the local language. Furthermore, having numerous urban
Volunteers can become an attraction for Volunteers in smaller communities to make frequent
visits to urban areas to socialize with other Volunteers and enjoy their city accommodations.
When Volunteers spend a considerable amount of time with other Volunteers they tend to
socialize less with host country nationals. And, the opportunity to further the Peace Corps’ Goals




Final Program Evaluation Report: Peace Corps/Moldova                                                              8
two and three are minimized. 10 Comments from these Volunteers located in urban sites
demonstrate some of their experiences:

         “There are so many well-established organizations in Chisinau - we don't need to waste resources here.
         COD should be in smaller villages and communities.”

         “I live in Chisinau so you can't just approach a school to do civic education.”

         “Today talking to the [Peace Corps] driver was the first time I've spoken Romanian in a couple months.”

         “A lot of PCVs come to Chisinau on weekends and they want places to crash. [We] get Volunteers staying
         here all the time. Chisinau is fantastic. It doesn't feel like I've left the United States.”

         “Some of the young PCVs are still in party mode and go into the capital or my site and get drunk.”

At the time of the evaluation post leadership had already expressed interest in reducing the
number of urban placements with the next trainee input group arriving in June 2013.


                  We recommend:

                    2. That the country director establish specific criteria for
                       placing Volunteers in urban sites.

                    3. That the country director, in coordination with the
                       regional director, define the circumstances under which
                       Volunteers are permitted to share living accommodations.


TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as
training adequacy and planning and development of the training life cycle.

The evaluation concluded that the training program in Moldova is effective at helping Volunteers
prepare for service and be productive at their sites. The post benefits from experienced language
training instructors that have been working with Peace Corps for many years. Additionally,
because Volunteer site announcements are done in the fourth week of PST, the staff can tailor
the training to specific site placements for the remaining six to eight weeks of PST. The staff also
conduct needs assessments to determine the content of technical and language in-service
trainings (IST), enabling them to develop more targeted training sessions.

The post has continued to strengthen its training program and is incorporating the new FITU
training sessions into all their training events. Staff and Volunteers have found the sessions to be
10
   The Peace Corps' mission has three goals: 1) Helping the people of interested countries in meeting their need for
trained men and women 2) Helping promote a better understanding of Americans on the part of the peoples served.
3) Helping promote a better understanding of other peoples on the part of Americans.


Final Program Evaluation Report: Peace Corps/Moldova                                                                   9
beneficial but have struggled to fit them into a tightly packed training schedule that includes
important Moldova-specific training sessions. To aid the post in conducting more of the FITU-
mandated sessions, the post was able to obtain funds from Peace Corps Headquarters to hold an
additional week of training for the 2012 EE Volunteers. The post is also considering adding a
mid-service training that would incorporate additional FITU training sessions that it did not have
time for during PST.

Even though the staff faced some difficulties incorporating the FITU sessions into the PST
program, the post’s training effectiveness was not impacted. Overall, we found that Volunteers
were satisfied with the language, cross-cultural, safety and security, medical/health, and
technical training portions of PST, as well as the ISTs that occur throughout a Volunteer’s
service. During PST the majority of classes are community-based in small groups with some
classes held at a training center with all Volunteers.

The post also provided a project design and management (PDM) workshop, behavior change
conference for HE Volunteers, and an all-Volunteer conference for COD and SED Volunteers,
which were well-received by Volunteers. The Volunteers stated that the PDM training was
effective for them and their counterparts. The focus of the training was appropriately placed on
developing strong community projects and not just focused on obtaining grant funds. HE
Volunteers and their counterparts participated in the behavior change conference that was funded
through the U.S. President’s Emergency Plan for AIDS Relief. Volunteers in the COD and SED
projects participated in an all-Volunteer conference to discuss challenges and build upon each
other’s experiences.

Volunteers appreciated the training design and format that was used to deliver training events.
Volunteers in the EE and HE sectors commented that the practice school helped them apply the
concepts they had learned during PST and get direct feedback before they moved to site.11 COD
and SED Volunteers also received focused technical training for two weeks during their PST
Phase III, which occurs after they have been at their sites for two months. Volunteers in the COD
and SED sectors also found the use of open space technology during training to be valuable
because it helped make the sessions more engaging.12

The following tables summarize the post’s training events and Volunteers’ perceptions on the
effectiveness of their training.




11
   The post extended PST for EE and HE Volunteers to accommodate for practice school. Volunteers get firsthand
experience teaching in a Moldovan classroom with students and are joined by their site counterparts for the final
week.
12
   Open space technology is an approach for facilitating meetings that focus on a specific purpose but the meeting
starts without a formal agenda. The agenda is instead determined by the participants at the beginning of the meeting.


Final Program Evaluation Report: Peace Corps/Moldova                                                              10
                                              Table 1: Training Events
                                 Training Provided to All Volunteers
                                                 PST
                                            Language IST
                                            Technical IST
                                                PDM
                                      Project Specific Training
                          EE                     HE                  SED/COD
                    Practice School        Practice School         Phase III PST
                                          Behavior Change          All Volunteer
                                             Conference              Conference
                Source: PC/Moldova

                         Table 2: Volunteer Perceptions of Training Effectiveness
                           Training                       Percent of Volunteers Who           Average
                                                          Rated Training Favorably            Rating
           PST:
             Local languagea                                           100%                      4.5
             Cross-Culturalb                                            88%                      3.4
             Safety and Securitya                                       96%                      4.1
             Medical/Healtha                                            92%                      3.8
             Technicala                                                 96%                      3.7
           SED/COD Phase III PSTc                                       85%                      3.6
           Language ISTa                                                84%                      3.6
           Technical ISTd                                               78%                      3.4
           PDMa                                                        100%                      4.2
           SED/COD All Volunteer Conferencee                           100%                      4.4
           HE Behavior Change Conferencef                              100%                      3.6
                Source: OIG interviews.
                a
                  N = 25, bN = 24, cN = 13, dN = 9, eN = 14, fN = 5 (Volunteers interviewed were at different points
                in their service and had not yet participated in all the training sessions)

Although training was effective, the evaluation uncovered some areas that require management
attention, particularly related to the use of language proficiency interviews and establishing a
trainee assessment tool.

The post was not utilizing the results from language proficiency interviews.

The Peace Corps Act states that Volunteers will not be assigned to their sites “unless at the time
of such assignment [the Volunteer] possesses such reasonable proficiency as his assignment
requires in speaking the language of the country or area to which he is assigned.” Additionally,
the post’s Welcome Book for Volunteers explains the importance of language training:
       As a Peace Corps Volunteer, you will find that language skills are key to personal and professional
       satisfaction during your service. These skills are critical to your job performance, they help you integrate
       into your community, and they can ease your personal adaptation to the new surroundings. Therefore,
       language training is at the heart of the training program. You must successfully meet minimum language
       requirements to complete training and become a Volunteer.



Final Program Evaluation Report: Peace Corps/Moldova                                                                  11
The post tests a trainee’s language skills by administering a language proficiency interview.
There are four levels in the proficiency scale: superior, advanced, intermediate, and novice. Each
level also has sublevels: high, mid, and low. The minimum language proficiency levels for
Moldova Volunteers were established as “intermediate mid” in Romanian and “intermediate
low” in Russian.

During the evaluation we discovered that all trainees were officially sworn-in as Volunteers
regardless of their language proficiency level. At the conclusion of PST, trainees learning
Russian were meeting the minimum proficiency level while some of those learning Romanian
were not. As demonstrated by the following chart, between 47 and 61 percent of trainees in each
input learning Romanian were not meeting the language proficiency level and some were still at
the novice level at the end of PST.

                                 Figure 1: Trainees’ Romanian Proficiency Level at the End of PST

                                         Volunteers Not Meeting                 Volunteers Passing
                                            Proficiency Level                    Proficiency Level
                                      1 PCV
                             2012            11 PCVs      24 PCVs             24 PCVs
     Trainee Input Group




                                               5 PCVs
                             2011                          16 PCVs                24 PCVs


                                      3 PCVs
                             2010                        33 PCVs              23 PCVs


                           80%         60%         40%      20%       0%        20%         40%      60%




Staff provided all Volunteers the same language support and resources regardless of their
language proficiency levels. At the end of PST, all Volunteers prepared language learning plans
and were encouraged to obtain a language tutor to further improve their language skills at site.
Staff reported that if a community partner complained about a Volunteer’s poor language skills
than the post would provide extra language support for the Volunteer.

Volunteers reported that language was one their greatest challenges to integrating into their
communities. By not using the results from the language proficiency interview in a meaningful
way the post may not be identifying Volunteers who need additional support with their language
learning. Volunteers who struggle in acquiring the local language may be less integrated into



Final Program Evaluation Report: Peace Corps/Moldova                                                       12
their communities, which could impact their work productivity and increase their vulnerability to
crime.

                 We recommend:

                      4. That the post define how language proficiency interview
                         results are to be used for swearing-in decisions, and
                         define a course of action for trainees who fail to meet
                         minimum language proficiency requirements by the end
                         of pre-service training.


The post’s trainee assessment tool did not incorporate available data sources and was time
consuming to use.

The Peace Corps Programming and Training Guidance: Training Design and Evaluation
encourages posts to assess and evaluate training to determine whether trainees and Volunteers
have gained the skills and knowledge they need to succeed in their Volunteer assignments. The
guidance lists multiple pieces of information that can be used, including: data from learning
assessments, feedback from trainees, and trainer observations.

The post quickly designed and used a trainee assessment tool for PST in June 2012 but the tool
did not evaluate trainees on all their learning competencies, and required a significant amount of
time to use. Components of the tool were administered weekly and incorporated trainee self-
assessments and feedback from various staff members including: language training instructors,
project managers, and the DPT. However, the tool did not include results from the language
proficiency interviews or the test results from the safety and security training questionnaire.13
Additionally, the assessment tool did not incorporate any feedback from the Peace Corps medical
officers (PCMOs) or the trainees on their acquisition of health concepts to serve safely as a
Volunteer. As a result, staff stopped using the tool.

Without a comprehensive assessment tool that takes advantage of the full range of available data,
staff may be unable to identify areas where trainees need to learn additional skills. Also, without
an assessment tool, staff is more susceptible to changing the training program based on how the
latest training group felt about its training rather than on the demonstrated results of the program.
At the time of the evaluation, the post had plans to revise the trainee assessment tool before the
next trainee input in June 2013.


                 We recommend:

                      5. That the director of programming and training ensure
                         the post develops and implements a comprehensive and
                         usable trainee assessment tool.

13
  The questionnaire is administered by the SSC during training to assess Volunteers’ knowledge of safety and
security information.


Final Program Evaluation Report: Peace Corps/Moldova                                                           13
VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has the post provided
adequate support and oversight to Volunteers?” To determine this, we assessed numerous
factors, including staff-Volunteer communications; project and status report feedback; medical
support; safety and security support including staff visits to Volunteer work sites, the Emergency
Action Plan (EAP), and the handling of crime incidents; and the adequacy of the Volunteer
living allowance.

In general, we determined through our evaluation that post has developed a solid Volunteer
support structure. Volunteers feel well supported by all staff and believe the staff is responsive to
the issues they raise. Post staff is prepared to support Volunteers during emergencies and has
adequately responded to crimes committed against Volunteers. Staff also provided strong support
through comprehensive site visits and weekly newsletters. Volunteers and staff acknowledge the
value of various Volunteer-led committees that provided additional support to Volunteers on a
variety of topics. In reviewing staff-Volunteer communications, Volunteer performance report
feedback, site visits, Peace Corps Volunteer Leaders (PCVL) program, Volunteer committees,
Volunteer allowances, whereabouts reporting policy, Volunteer alcohol consumption, crime
incident response, and most elements of emergency preparation, OIG found no significant areas
of concern that would necessitate action by the post.

Staff-Volunteer Communications. The evaluation determined that there was good, open
communication between Volunteers and staff. Staff regularly sought Volunteer feedback and was
generally aware of Volunteer needs and concerns. Volunteers interviewed mentioned that staff
was responsive to the issues they raise. Some of the feedback mechanisms used to gather
Volunteer input includes training evaluations and the Volunteer advisory committee.14

The post used a variety of methods to reach Volunteers and communicate important information,
including text messages, emails, and phone calls as Volunteers have cell phones and frequent
access to the Internet. Volunteers also appreciated the weekly newsletter sent by the post and the
staff’s open door policy when they are in Chisinau. Additionally, the post established a
Volunteer support group that includes staff from the various units that meet to discuss and advise
the post’s leadership on staff responses to Volunteer issues.

The following table demonstrates the strength of the post’s Volunteer support system:




14
  The Volunteer Advisory Committee is a small group of elected Volunteer representatives that discuss issues with
Peace Corps staff and help develop solutions.


Final Program Evaluation Report: Peace Corps/Moldova                                                           14
                Table 4: Volunteer Perception of Effectiveness of Staff Support15
                        Support Area                 Percent of            Average Rating
                                                  Volunteers Rating         for Support
                                                 “Average Support”
                                                      or Better
                 Leadership                             100%                      4.6
                 Programming & Training                  97%                      4.3
                 Safety and Security                    100%                      4.7
                 Medical                                 96%                      4.3
                 Administrative                          77%                      3.5
                 Source: OIG interviews.

Volunteer Performance Report Feedback. Staff provides feedback to Volunteers’ performance
reports. Volunteers who had submitted their reports considered the staff’s VRF feedback helpful
with 93 percent (13 of 14) of interviewed Volunteers rating the feedback quality as average or
better (3.8 average).16 However, some Volunteers mentioned that the feedback provided was
more focused on their reporting of data instead of on the activities they had accomplished.

Site Visits. The staff conducts thorough, comprehensive site visits that may include observations
of the Volunteer’s work, conversations with counterparts, and visits to host families. Before site
visits occur, programming staff work with the Volunteers to plan the visit to ensure it meets their
needs. All 25 Volunteers interviewed stated that they had received an adequate number of site
visits, and they all rated the effectiveness of the visits as “average” or better (4.2 average). After
the site visit both the staff and Volunteers document what occurred and provide feedback.

PCVL Program. Although the program recently started in 2012, it is off to strong start. Third-
year Volunteers apply to serve as PCVLs while continuing to work in a primary assignment. The
PCVLs assist staff during trainings and with other programmatic tasks and also provide support
to other Volunteers throughout their service. While the PCVLs assumed these additional support
responsibilities, they still fulfilled their duties in their primary assignments. Some PCVL were so
actively involved in their primary assignments they elected to remain at their original sites for
their third year rather than move to Chisinau.

Volunteer Committees. The post has a number of active committees in which Volunteers
provide support to each other. The following table summarizes these committees.




15
   Leadership was derived from the CD score. Programming & Training was derived by averaging the scores of the
DPT, PMs, PAs, and training manager. Safety and Security was derived by averaging the scores of the SSC. Medical
was derived from the PCMOs’ scores. Administrative was derived from the DMO’s score.
16
   At the time of the evaluation fieldwork not all Volunteers had been required to submit their VRF.


Final Program Evaluation Report: Peace Corps/Moldova                                                         15
                                          Table 3: Volunteer Committees
           Committee Name                                              Description
      Volunteer Advisory Committee           Elected Volunteer representatives discuss issues with Peace
                 (VAC)                       Corps staff and help develop solutions.
                                             Volunteers form part of the post’s small grants committee
            SPA Advisory Board
                                             and review proposals and make funding recommendations.
                                             Currently serving Volunteers contact trainees before they
             Mentoring Program               arrive in Moldova and serve as mentors through PST to
                                             facilitate integration into Moldova.
                                             Volunteers are trained as peer mentors and provide in-
        Peer Support Network (PSN)
                                             country support system to other Volunteers after PST.
                                             Volunteers who identify within the gay, lesbian, bisexual,
       Gender Workgroup (Rainbow             queer and questioning population conduct diversity training
                Trout)                       and various activities with gender support groups in
                                             Moldova.
                                             Volunteers support Trafficking in Persons (TiP) programs
                Moldova TiP                  safely and effectively by linking resources with more
                                             remote rural Volunteer communities.
     Volunteer Information Committee         Volunteers collaborate and share information through an
                   (VIC)                     online information-sharing platform called Dova Lounge.
     Source: PC/Moldova

Interviewed Volunteers commented that they appreciate the support provided by these
committees. Volunteers specifically mentioned the Volunteer Information Committee’s work on
Dova Lounge as quite useful and that it was good to have the PSN. The staff is currently working
with the VAC to establish a charter that is intended to address some concerns raised by staff and
Volunteers regarding the VAC’s tone and focus on issues.

Volunteer Allowances. Most interviewed Volunteers were satisfied with the adequacy and
timeliness of their settling-in and living allowances. The post conducts annual surveys to assess
the adequacy of Volunteer allowances and makes adjustments as necessary.17 Although several
Volunteers stated that the allowances required them to adjust their spending, most reported that
they were still able to purchase necessities and pay their host family for living expenses.

Whereabouts Policy Reporting. Although post has a whereabouts system in place, many
Volunteers were not reporting to post staff as required. Moldova requires Volunteers to report
their whereabouts when they stay overnight anywhere other than their assigned site. Volunteers
report their whereabouts by contacting the guards at the post headquarters in Chisinau. Despite
this, only 60 percent of Volunteers interviewed (15 of 25) report their whereabouts “always” or
“most of the time.” Volunteers were aware that the new post leadership has placed a greater
emphasis on the whereabouts reporting policy and acknowledged they needed to be more
diligent in reporting their whereabouts.


17
  Post are required to conduct an annual survey to ensure that all Volunteers receive adequate allowances to obtain
goods and services need to safely serve as Volunteers.



Final Program Evaluation Report: Peace Corps/Moldova                                                             16
Volunteer Alcohol Consumption. Moldovan families typically produce homemade wine and
spirits and they are readily available in the homes of Volunteer host families. Alcohol
consumption is part of Moldovan daily life. Headquarters staff expressed concerns to OIG that
alcohol abuse may be impacting Volunteer health safety, or program effectiveness, and asked
OIG to assess whether the post was providing adequate training and support to Volunteers on
this issue.

We determined that post staff was aware of Volunteers’ alcohol consumption and had
established adequate training and support systems for Volunteers. The range of issues related to
alcohol consumption and its abuse are presented during training sessions from both a cross-
cultural context and a health and safety perspective. Volunteers acknowledged that the post
provided them with extensive support and training on this topic during PST and they could not
identify any additional support the post could provide. Volunteers understood they need to take a
responsible approach to alcohol consumption. The post staff reported having adequate resources
at their disposal to address alcohol-related issues when they occur.

Crime Incident Response. The post has adequately responded to crimes committed against
Volunteers, and post staff have received sexual assault training. Six Volunteers we interviewed
stated that they had been victims of a crime. When asked how the post staff responded to the
incidents, all six Volunteers rated the staff’s response as “very well”, the highest rating possible.
At the time of the evaluation, the staff online sexual assault response training had been
completed by almost all staff members who were required to take it (16 of 17).18 The post also
encouraged all staff members to complete the online training, and at the time of the evaluation
nine additional staff members had also completed it. We reviewed files and interviewed staff
who had responded to recent sexual assault incidents and concluded that the post staff’s response
was appropriate as they offered the Volunteers various forms of support.

Emergency Preparedness. The post demonstrated that it has taken several important steps to
prepare for emergencies. Staff members have developed relationships with security personnel at
the U.S. Embassy and the safety and security coordinator (SSC) is working to further
relationships with local law enforcement. Safety and security criteria were incorporated into site
development to ensure that Volunteers are not placed in homes that would expose them to an
unnecessary level of risk. The post has developed a medical evacuation plan that follows the
agency’s recommended format. Additionally, the post has a functioning duty officer system and
is prepared to respond to Volunteers’ requests for assistance.

The evaluation did however uncover a few areas of emergency preparedness and Volunteer
safety and security that require management attention, particularly related to consolidation
points, SLFs, housing checks, and smoke/carbon monoxide detectors.



18
  The training is required for: country directors, directors of programming and training, directors of management
operations, safety and security coordinators, associate Peace Corps project managers, programming and training
specialists, training managers, Peace Corps medical officers, and any other staff who may function as a duty officer
or first responder.


Final Program Evaluation Report: Peace Corps/Moldova                                                              17
Volunteers were unable to identify their consolidation points.

The safety and security Standard Operating Procedure: EAP Testing and Training requires the
SSC to “ensure that all Volunteers are familiar with the name and location of their respective
consolidation point.” As part of the post’s EAP, Volunteers are assigned to a consolidation point
where they would report to in the event of an emergency.

Although Volunteers received a copy of the EAP and participated in EAP training during PST,
52 percent (13 of 25) of interviewed Volunteers could not correctly identify the location of their
consolidation point. Additionally, even though a warden’s training occurred in November 2012,
two of the five wardens interviewed were unable to identify their consolidation points.19

The evaluation revealed that the post was not taking advantage of opportunities to verify that
Volunteers know their consolidation point location. The post did not test Volunteers on their
knowledge of consolidation points, and the section of the SLF that included information about a
Volunteer’s consolidation point was not routinely reviewed by Peace Corps staff to ensure it had
been completed accurately by the Volunteer. If Volunteers and security wardens are uncertain of
their EAP consolidation points, they could put themselves and others at risk should consolidation
be necessary during an emergency.


                 We recommend:

                      6. That the safety security coordinator ensure that all
                         Volunteers are familiar with their consolidation points.


Site locator forms were not adequately completed by Volunteers.

According to the Peace Corps’ safety and security Standard Operating Procedure: Site Locator
Forms, the purpose of SLFs is “to ensure that accurate communication and logistical information
is collected, stored, and readily available to all staff with an active role in the support of
Volunteers during crises.” Additionally, the standard operating procedure requires the SSC to
coordinate with appropriate staff to ensure that SLFs are reviewed during site visits and a system
is in place to review and improve maps to Volunteer residences. As part of Moldova’s EAP, each
Volunteer is required to provide their SLF to the SSC within two weeks of arriving at their site.
The submitted SLF must include alternate forms of communication and a map with directions to
the Volunteer’s site.

We found that sixty-four percent (16 of 25) of the SLFs were missing important contact
information that may be needed in an emergency or had inadequate directions and maps to locate
the Volunteer’s house.



19
  The Moldova EAP identifies Volunteers as regional wardens that may be called upon to assist post staff in
responding to emergencies.


Final Program Evaluation Report: Peace Corps/Moldova                                                          18
Although SLFs are being submitted to post staff, they were not routinely checked by the SSC or
by staff. Post staff reported that they may use the information in SLFs to locate Volunteers in
case of an emergency. Incomplete SLFs could pose a safety risk to Volunteers if they cannot be
contacted or located during an emergency.


                 We recommend:

                     7. That the post implement a mechanism to ensure that
                        site locator forms contain all necessary information.

                     8. That the safety and security coordinator work with
                        appropriate staff to ensure that site locator information
                        is reviewed during site visits and updated, as necessary.


Some Volunteers living with host families did not have locks on their rooms.

MS 270.6.4 “Housing Standards” requires staff to inspect all housing prior to the Volunteer’s
arrival to ensure it meets the post’s housing criteria. Because Volunteers in Moldova live with
host families during their first three months at site, one of the post-specific housing requirements
is that Volunteers have a lock on the door to their room.

During the evaluation the only Volunteer housing deficiency observed was that some
Volunteers’ rooms did not have locking doors. Forty-seven percent (9 of 19) of the houses we
visited did not have a lock on the Volunteer’s room.20 21 These nine Volunteers had been at their
sites between six and 18 months and this deficiency had not been corrected even though the
housing checklist reflected the missing locks.

The post did not have a standard process to ensure that housing deficiencies identified during
staff housing inspections were addressed before the Volunteer arrived at site. Addressing
housing deficiencies is an important element of Volunteer safety. During our review we learned
of two crime incidents that occurred within the host family’s house where the Volunteer was able
to contact post after locking themselves in their room. There is a potential security risk for
Volunteers if housing deficiencies are not corrected.


                 We recommend:

                     9. That the country director establish a system to verify
                        that identified housing deficiencies are corrected before
                        the Volunteer arrives at site.


20
   Additionally, one interview did not occur at the Volunteer’s residence and when Volunteers lived with other
Volunteers in the same house their housing check was only counted once in our analysis to avoid double-counting.
21
   This requirement does not apply for Volunteers that live alone in an apartment without a host family.


Final Program Evaluation Report: Peace Corps/Moldova                                                           19
The post staff used inconsistent housing checklists.

MS 270.6.4 “Housing Standards” requires the post to establish minimum housing standards.
Although the post established housing standards, they were documented in two different versions
of the housing checklist that were inconsistent.

Post staff had different preferences for which version of the housing checklist they used. Some
programming staff preferred to use a version that gathered additional information on host
families because they used this information to make site placement decisions. In contrast, the
SSC preferred that all staff use the housing checklist provided in the EAP, Appendix B.
However, there was no policy in place that mandated the use of either housing checklist.
Regardless of what checklist was used, neither one clearly indentified which housing elements
were necessary to meet the post’s minimum housing standards, as they both included optional
and mandatory housing elements.

Volunteers could be put at risk if they are placed in housing that does not meet the post’s
minimum housing standards. Staff may not notice a potential risk for Volunteers if the housing
checklist does not identify required housing elements in clear terminology.

                 We recommend:

                      10. That the country director ensure that the housing
                          checklist clearly identifies the required elements and
                          that all staff use the appropriate housing checklist(s).


Some Volunteers did not have functioning smoke/carbon monoxide detectors.

In Volunteer homes there are potential sources of fires from heaters, furnaces, irons, and gas
stoves. Additionally, heating in most Moldovan homes is provided through a gas broiler or a
ceramic stove that may release carbon monoxide. As noted in Moldova’s Volunteer Safety and
Security Handbook, every Volunteer and trainee was provided with a smoke/carbon monoxide
detector, and Volunteers were responsible for testing the detectors monthly and reporting any
faults immediately to the Peace Corps.

Although detectors were provided to Volunteers, twenty-nine percent (6 of 21) of the Volunteers
visited did not have functioning detectors.22 The detector’s batteries lasted about a year and had
not been replaced by the Volunteers when they stopped working. The post provided replacement
batteries to Volunteers upon request, but there was no routine effort initiated by the post to
provide new batteries after a year when they expected them to stop functioning.



22
  Six Volunteers interviewed lived with other Volunteers in the same house so their housing check was only
counted once in our analysis to avoid double-counting. Additionally, one Volunteer interview was not conducted at
the Volunteer’s residence and one Volunteer’s detector was inaccessible for testing.


Final Program Evaluation Report: Peace Corps/Moldova                                                           20
These carbon monoxide/detectors help keep Volunteers and their host families safe, and it is
important that they are properly maintained. During our review we learned of an incident where
the Volunteer’s carbon monoxide/smoke detector alarm alerted the host family to a fire caused
by a faulty electrical outlet. If the detector had not been working, the fire could have caused
more damage or harmed the residents. Volunteers are exposing themselves to greater danger by
not having fully functioning smoke/carbon monoxide detectors.


              We recommend:

                  11. That the country director establish a process to ensure
                      that Volunteers replace the smoke/carbon monoxide
                      detector batteries each year.




Final Program Evaluation Report: Peace Corps/Moldova                                          21
                     OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of OIG is to prevent and detect fraud, waste, abuse, and mismanagement and to
promote economy, effectiveness, and efficiency in government. In February 1989, the Peace
Corps OIG was established under the Inspector General Act of 1978 and is an independent entity
within the Peace Corps. The Inspector General is under the general supervision of the Peace
Corps Director and reports both to the Director and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

OIG Evaluation Unit announced its intent to conduct an evaluation of PC/Moldova on December
5, 2013. For post evaluations, we use the following researchable questions to guide our work:

          To what extent has post developed and implemented programs to increase host country
           communities’ capacity?
          Does training prepare Volunteers for Peace Corps service?
          Has the post provided adequate support and oversight to Volunteers?
          Are post resources and agency support effectively aligned with the post’s mission and
           agency priorities?

A team of two evaluators conducted the preliminary research portion of the evaluation December
19, 2012 to February 8, 2013. This research included a review of agency documents provided by
headquarters and post staff; interviews with management staff representing the EMA region, the
office of Overseas Programming and Training Support (OPATS), the Office of Safety and
Security (SS), the Office of Volunteer Recruitment and Selection (VRS), and the Office of Peace
Corps Response (PCR); and inquiries to the Office of Health Services (formerly known as
Volunteer Support), the Office of Global Health and HIV, the Office of Intergovernmental
Affairs and Partnerships, and the Office of Private Sector Initiatives.23

In-country fieldwork occurred from February 11 to March 1, 2013, and included interviews with
post senior staff in charge of programming, training, and support; the U.S. deputy chief of
mission; the embassy regional security officer; and host country government ministry officials.
In addition, we interviewed a stratified judgmental sample of 25 Volunteers (24 percent of
Volunteers serving at the time of our visit) based on their length of service, site location, project
focus, gender, age, and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency. The evidence, findings, and
recommendations provided in this report have been reviewed by agency stakeholders affected by
this review.

23
     In 2013 the Office of Volunteer Support became the Office of Health Services.


Final Program Evaluation Report: Peace Corps/Moldova                                               22
                                INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 25 Volunteers, 15 staff members
in-country, and 20 representatives from Peace Corps headquarters in Washington D.C., the U.S.
Embassy in Moldova, and key ministry officials. Volunteer interviews were conducted using a
standardized interview questionnaire, and Volunteers were asked to rate many items on a five-
point scale (1 = not effective, 3 = average effective, 5 = very effective). The analysis of these
ratings provided a quantitative supplement to Volunteers’ comments, which were also analyzed.
For the purposes of the data analysis, Volunteer ratings of “3” and above are considered
favorable. In addition, 23 out of 25 Volunteer interviews occurred at the Volunteers’ homes, and
we inspected 22 of these homes using post-defined site selection criteria.24 The period of review
for a post evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Moldova; the Volunteer sample was selected to reflect these demographics.

                                Table 5: Volunteer Demographic Data
                                                                     Percentage of
                                 Project
                                                                      Volunteers
              SED                                                        26%
              COD                                                        28%
              EE                                                         25%
              HE                                                         21%
                                                                     Percentage of
                                 Gender
                                                                      Volunteers
              Female                                                     55%
              Male                                                       45%
                                                                     Percentage of
                                   Age
                                                                      Volunteers
              25 or younger                                              49%
              26-29                                                      26%
              30-49                                                      11%
              50 and over                                                14%
             Source: PC/Moldova Volunteer Roster.
             Note: Percentages may not total 100% due to rounding.




24
  When Volunteers lived with other Volunteers in the same house their housing check was only counted once in our
analysis to avoid double-counting. Additionally, one Volunteer interview was not conducted at the Volunteer’s
residence.


Final Program Evaluation Report: Peace Corps/Moldova                                                         23
At the time of our field visit, the post had 37 staff positions. The post also employs temporary
staff/contractors to assist with PST. Given the time of our visit, these positions were not staffed.
We interviewed 15 staff members.

               Table 6: Interviews Conducted with PC/Moldova Staff Members
                             Position                       Status    Interviewed
      Country Director                                                    USDH                    X
      Director of Programming and Training                                USDH                    X
      Director of Management and Operations                               USDH                    X
      Safety and Security Coordinator                                     PSC*                    X
      Peace Corps Medical Officer (2)                                     PSC                     X
      Medical Assistant                                                   PSC
      Project Managers (4)                                                PSC                     X
      Project Specialists (Interviewed 2 of 4)                            PSC                     X
      Training Manager                                                    PSC                     X
      Community Integration Coordinator                                   PSC                     X
      Program and Training Assistant                                      PSC
      Budget and Finance Assistant                                        PSC
      Finance Assistant                                                   PSC
      Administrative Assistant/Receptionist                               PSC
      Cashier                                                             FSN*
      IRC Coordinator/Back-Up Cashier                                     FSN
      IT Specialist/Back-Up Duty Officer                                  PSC                     X
      General Services Manager                                            PSC
      General Services Assistant                                          PSC
      Driver/Vehicle Maintenance Manager                                  PSC
      Driver/Property Maintenance Specialist                              PSC
      Driver (3)                                                          PSC
      Security Guards (4)                                                 PSC
      Cleaners (2)                                                        PSC
      Data as of February 2013. *PSC is personal services contractor; FSN is foreign service national.

Twenty additional individuals were interviews during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters in
Washington, D.C.

            Table 7: Interviews Conducted with PC/Headquarters Staff, Embassy
                             Officials and Key Ministry Officials
                            Position                            Organization
         Regional Director                                           PC/headquarters/EMA region
         Chief of Operations                                         PC/headquarters/EMA region
         Chief of Programming and Training                           PC/headquarters/EMA region
         Country Desk Officer                                        PC/headquarters/EMA region
         Chief Administrative Officer                                PC/headquarters/EMA region
         Regional Security Advisor                                   PC/headquarters/EMA region
         PC Safety and Security Officer                              PC/headquarters/SS



Final Program Evaluation Report: Peace Corps/Moldova                                                     24
         Placement Manager                                   PC/headquarters/VRS
         Programming and Training Specialist (Small          PC/headquarters/OPATS
         Enterprise Development)
         Programming and Training Specialist (Education)     PC/headquarters/OPATS
         Programming Specialist                              PC/headquarters/PCR
         Recruitment and Placement Specialist                PC/headquarters/PCR
         Deputy Chief of Mission                             U.S. Embassy in Chisinau
         Regional Security Officer                           U.S. Embassy in Chisinau
         Director, Marketing and International Relations     Ministry of Agriculture and
         Department                                          Food Industry
         Vice-Director General, Deputy Main State Sanitary   Ministry of Health
         Inspector
         Head of Division, International Relations and       Ministry of Regional
         Investments                                         Development and Construction
         Adviser                                             Ministry of Education
         Director for Pre-University Department              Ministry of Education
         Director of the Department for Universities         Ministry of Education
        Data as of February 2013.




Final Program Evaluation Report: Peace Corps/Moldova                                        25
                         LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That the safety security coordinator establish a process to ensure that safety and security
   incidents are properly documented in the post’s site history files in a centralized location.

2. That the country director establish specific criteria for placing Volunteers in urban sites.

3. That the country director, in coordination with the regional director, define the
   circumstances under which Volunteers are permitted to share living accommodations.

4. That the post define how language proficiency interview results are to be used for swearing-
   in decisions, and define a course of action for trainees who fail to meet minimum language
   proficiency requirements by the end of pre-service training.

5. That the director of programming and training ensure the post develops and implements a
   comprehensive and usable trainee assessment tool.

6. That the safety security coordinator ensure that all Volunteers are familiar with their
   consolidation points.

7. That the post implement a mechanism to ensure that site locator forms contain all necessary
   information.

8. That the safety and security coordinator work with appropriate staff to ensure that site
   locator information is reviewed during site visits and updated, as necessary.

9. That the country director establish a system to verify that identified housing deficiencies are
   corrected before the Volunteer arrives at site.

10. That the country director ensure that the housing checklist clearly identifies the required
    elements and that all staff use the appropriate housing checklist(s).

11. That the country director establish a process to ensure that Volunteers replace the
    smoke/carbon monoxide detector batteries each year.




Final Program Evaluation Report: Peace Corps/Moldova                                               26
                      APPENDIX A: LIST OF ACRONYMS
    CD                       Country Director
    COD                      Community and Organizational Development
    DPT                      Director of Programming and Operations
    EAP                      Emergency Action Plan
    EE                       English Education
    EMA                      Eastern Mediterranean Asia
    FITU                     Focus-In and Train-Up
    HE                       Health Education
    IST                      In-Service Training
    MS                       Manual Section
    OIG                      Office of Inspector General
    PC                       Peace Corps
    PCMO                     Peace Corps Medical Officer
    PCR                      Peace Corps Response
    PCVL                     Peace Corps Volunteer Leaders
    PDM                      Project Design and Management
    PM                       Program Manager
    PST                      Pre-service Training
    SCC                      Safety Security Coordinator
    SED                      Small Enterprise Development
    SLF                      Site Locator Form
    SPA                      Small Project Assistance
    TM                       Training Manager
    VIDA                     Volunteer Information Database Application




Final Program Evaluation Report: Peace Corps/Moldova                      27
    APPENDIX B: AGENCY’S RESPONSE TO THE PRELIMINARY
                                         REPORT




Final Program Evaluation Report: Peace Corps/Moldova   28
                        APPENDIX C: OIG COMMENTS
Management concurred with all 11 recommendations. In its response, management described
actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that in closing recommendations, we are not certifying that
the agency has taken these actions or that we have reviewed their effect. Certifying compliance
and verifying effectiveness are management’s responsibilities. However, when we feel it is
warranted, we may conduct a follow-up review to confirm that action has been taken and to
evaluate the impact.

All 11 recommendations remain open. OIG will review and consider closing recommendations
when the documentation reflected in the agency’s response to the preliminary report is received.




Final Program Evaluation Report: Peace Corps/Moldova                                          35
    APPENDIX D: PROGRAM EVALUATION COMPLETION AND
                     OIG CONTACT

   PROGRAM                        This program evaluation was conducted under the
   EVALUATION                     direction of Assistant Inspector General for Evaluations
                                  Jim O’Keefe by Evaluator Danel Trisi. Additional support
   COMPLETION
                                  was provided by Lead Evaluator Heather Robinson and
                                  additional assistance was provided by Jerry Black and
                                  Joyce Shores.




                                  Jim O’Keefe
                                  Assistant Inspector General for Evaluations

   OIG CONTACT                    Following issuance of the final report, a stakeholder
                                  satisfaction survey will be distributed. If you wish to
                                  comment on the quality or usefulness of this report to help
                                  us improve our products, please e-mail Assistant Inspector
                                  General for Evaluations Jim O’Keefe at
                                  jokeefe@peacecorps.gov or call 202.692.2904.




Final Program Evaluation Report: Peace Corps/Moldova                                            36
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                         Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                peacecorps.gov/OIG/contactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
